    specialists and found that they lacked critical training identified by the Federal Acquisition
    Institute's "Contract Specialist Training Blueprint." Most notably we found no training in
    the areas of marketplace analysis, building and managing relationships, and skills in
    effectively operating in a customer-oriented environment. Mentioned often by Contracting
    Office customers was the lack of contracting acumen. Customers stated that the lack of
    adequate training and experience adversely affects their ability to accomplish mission
    needs. Current contract specialists also recognize the need for more training in contract-
    specific critical skills.

   In an informal survey conducted during our interviews for this review, Contracting Office
    customers rated the Library's contracting function below the satisfactory level. The average
    performance rating was "2" on a scale of 1 to 5, with 1 being "least satisfied." Customers
    cited timeliness issues, not attending critical meetings, non-responsiveness to questions,
    inability to provide basic contract services, superfluous questions that delay the contracting
    process, and vendor complaints as the basis for the low customer service ratings. In the
    Library-wide surveys conducted by our office, the Contracting Office declined eight
    percentage points in customer satisfaction between 2002 and 2003.

   For other than basic procurement actions, service units are funding their own dedicated
    contract specialists and going outside the Library for help. The OCFO has funded one
    contract specialist. CRS and ITS are partnering to fund another contract specialist to meet
    mission-critical IT needs. Both offices stated that the Contracting Office does not have the
    capacity to manage large and complex contracts. CRS, Copyright, and NLS/BPH are using
    General Services Administration contracting vehicles such as the Federal Systems
    Integration and Management Center, Safeguard, and government-wide contracts due to a
    lack of confidence in the Library's capacity to administer large and complex acquisitions.
    As a result, the Library is spending large sums of money for fees associated with using
    external contracting vehicles. CRS, for example, told us that it had spent $443,800 in FY
    2001 through 2004 on these fees. This money could be put to better use by redirecting it to
    core mission activities.

   There is also a lack of leadership in the Contracting Office. The Acting Chief, a temporary
    employee, is generally thought of as knowledgeable, however, several customers believe he
    should be taking a much more active role in managing the office. All of the customers we
    interviewed directed specific comments toward the Supervisory Contract Specialist.
    Customers stated that he is an "obstacle" and a "roadblock" to their critical mission needs.
    Several offices cited telephone calls and e-mails that go unanswered, missed meetings, and
    the need to follow up in order to get a response as major impediments to effective customer
    service. Former Contracting Office employees stated that the Supervisory Contract
    Specialist was a major reason for their leaving the Office. Notwithstanding his seemingly
    rote recitation of the Federal Acquisition
        Regulation, some interviewees openly questioned his knowledge of the mechanics of the
        acquisition process.

Customers also commented on the lack of continuity in Contracting Office leadership. For over
three years, the Contracting Office has been without a permanent Chief, which perpetuates
ineffective leadership. We reported management and personnel issues in a September 18, 2002
memorandum that are still unresolved. We noted in a March 10, 2003 memorandum to you that
the head of the contracts and grants management area and Chief of the Contracting Office
positions were vacant. We recommended filling these vacancies as soon as possible because of
the adverse affect the vacancies could have on Library operations. The Contracting Office
Chief position is currently being filled. The management position over contracting and grants
should also be a priority, as well as contract specialist positions.

Contract Specialists sit in the center of a multi-pronged acquisition process, with stakeholders
distributed across federal agencies as well as within and outside the federal government.2 The
Library has multiple service units crossing many functional areas. It is essential to maintain a
customer-oriented contracting office to meet this diverse array of needs. A successful
acquisitions function requires a fresh, results-oriented view of the process with acquisition
professionals serving as business advisors to their respective agency stakeholders.3 Customers
stated that the Contracting Office is not up to date on the current acquisition environment and
needs an infusion of fresh ideas and personnel. The absence of these key attributes has led to a
steady decline in the Contracting Office's ability to support the Library's critical mission needs.
The deficiencies must be addressed without delay.

We appreciate the cooperation extended by Library staff during this review. If you have any
questions or if you would like to discuss these issues further, please let me know.


cc:         DeputyLibrarian
            Chief of Staff




2   Federal Acquisition Institute, Contract Specialist (CS) Training Blueprint (formerly called the "Contract Specialist
     Workbook"), p. 5.
3   Ibid, p. 6.
